Inspection of Corporation Finance
Referrals, Memorandum




                   September 30, 2008 

                       Report No. 433

                                             UNITED STATES 

                           S E C U R I T I E S A N D EXCHANGE COMMISSION 

                                       W A S H I N G T O N , D.C. 20549 


    OFFICE OF
INSPECTOR GENERAL                    MEMORANDUM
                                        September 29,2008


         To: 	         Linda Thomsen, Director, Division of Enforcement
                       John White, Director, Division of Corporation Finance

         From: 	       H. David Kotz, Inspector ~ e n e * ~

         Subject: 	    Inspection of Corporation Finance Referrals, Memorandum Report
                       No. 433

         This memorandum transmits the Securities and Exchange Commission, Office of
         lnspector General's (OIG) findings detailing the results of our review of the
         Division of Corporation Finance's referrals to the Division of Enforcement
         (Enforcement). We conducted this review as part of our continuous effort to
         assess management of the Commission's program and operations.

         The memorandum report contains 3 recommendations that the Divisions of
         Enforcement and Corporation Finance should implement to improve the referral
         process. Enforcement agreed with recommendations 1 and 2, and Corporation
         Finance agreed with recommendations 1 and 3. Your written responses to the
         draft report, dated September 3, 2008, are included in their entirety in Appendix I.

         Should you have any questions regarding this report, please do not hesitate to
         contact me. During this audit we appreciate the courtesy and cooperation that
         you and your staff extended to our auditors.

         Attachment

         cc: 	   Peter Uhlmann, Chief of Staff, Chairman's Office
                 Diego Ruiz, Executive Director, Office of the Executive Director
                 Joan McKown, Chief Counsel, Division of Enforcement
                 Brian Breheny, Deputy Director, Division of Corporation Finance
                 Paula Dubberly, Associate Director (Legal) Division of Corporation Finance
                 Lewis Walker, Acting Chief lnformation Officer, Office of lnformation
                        Technology
                 Susan Markel, Chief Accountant, Division of Enforcement
                 Mary Kosterlitz, Office Chief, Office of Enforcement Liaison, Division of
                        Corporation Finance
                 Charles Wright, Counsel, Office of Chief Accountant, Division of
                        Enforcement
George Eckard, Assistant Director, Office of Finance and Administration,
      Office of Information Technology
Darlene Pryor, Management Analyst, Office of the Executive Director
Dan Lisewski, Branch Chief, Information Resources Management, Office
      of Information Technology

Rick Hillman, Managing Director of Financial Markets and Community
      Investment, GAO
                     Background and Objectives


Background
The Securities and Exchange Commission (Commission)1 Division of
Corporation Finance (CF) refers potential securities law violations to the Division
of Enforcement (ENF) for investigation. CF categorizes these referrals as
involving either delinquent or non-delinquent filers. Delinquent filer referrals
pertain to individuals or entities that are not current in their Commission filing
obligations. In contrast, non-delinquent filer referrals include all other types of
potential securities law violations, such as accounting misstatements and the
inadequacy of issuer disclosures. As discussed in the scope section below, this
memorandum report focuses on non-delinquent filer referrals.

When CF staff conduct reviews of registrant filings, they may identify potential
securities law violations.2 If CF staff identify a potential securities law violation,
they prepare a referral memorandum for CF’s Office of Enforcement Liaison (CF
OEL) that describes the potential securities law violation.3 CF-OEL reviews the
referral memorandum and then forwards it to either the ENF Office of the Chief
Accountant (ENF-OCA) or ENF staff who are actively working on matters
involving the same registrant. If ENF-OCA receives the referral, it reviews the
referral and in conjunction with a Senior Officer in Enforcement makes an initial
determination of whether ENF staff should investigate the referral. ENF-OCA
forwards the referral to ENF staff for investigation if ENF-OCA believes the
alleged securities law violation may warrant further investigation. This process
determines the merits of a referral based on a variety of factors, such as the age
and nature of the alleged securities law violation and the degree of potential
harm to investors.


Objectives, Scope, Methodology
Objectives. To identify potential improvements in the referral process.

Scope. The Office of Inspector General (OIG) conducted the review between
July 2007 and August 2008. We performed an inspection in accordance with the
Quality Standards for Inspections, January 2005, issued by the President’s

1 See Appendix II for the acronyms used. 

2 The staff may also identify potential securities law violations from other sources, such as current 

   publications (e.g. newspaper articles), investor complaints, etc.
3 In some cases, CF-OEL will prepare the memorandum in consultation with CF staff.

Corporation Finance Referrals                                                              September 30, 2008
Memorandum Report No. 433
                                                  Page 1
Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. However, in September 2007, due to unforeseen changes in the
OIG’s work priorities, the former Deputy and Acting Inspector General suspended
work on the inspection. At that time, the review of non-delinquent filer referrals
had just begun.

In February 2008, the newly-appointed Inspector General directed the
resumption of the inspection. Thereafter, we reviewed the previously-conducted
inspection work. However, given the time lapse since the inspection began, we
determined that the data previously obtained (and the work performed on the
data) was no longer current. Thus, we concluded that continuing the inspection
in its current form was not a viable option. Although we have not completed a
comprehensive inspection of the CF referral process at this time, we are issuing
this memorandum report, which identifies three findings and recommendations4
involving non-delinquent filer referrals that we believe would significantly improve
the referral process.5

Methodology. We reviewed supporting documentation, such as policies and
procedures, reviewed non-delinquent filer referral memoranda, conducted
interviews with Commission staff, and analyzed management reports on non
delinquent filer referrals from Fiscal Years 2006 and 2007.




4See Appendix III for a list of our recommendations. 

5We may conduct a larger-scale audit of the CF referral process in the future, if circumstances warrant. 

Corporation Finance Referrals                                                            September 30, 2008 

Memorandum Report No. 433

                                                 Page 2
              Findings and Recommendations 



Finding 1: CF-OEL and ENF-OCA’s Referral
Tracking Systems Should Be Centralized
        CF-OEL and ENF-OCA currently use separate Access databases
        that store similar referral information. As a result, the referral
        process is inefficient. In addition, there is an increased risk that
        ENF-OCA does not have a record of all potentially significant
        referrals.

Maintaining Separate Access Databases
CF-OEL and ENF-OCA use separate Access databases to track non-delinquent
filer referrals. CF-OEL currently has read-only access to ENF-OCA’s database.
In addition to tracking CF-OEL referrals, ENF-OCA’s database also tracks
accounting related referrals received from other sources (e.g., anonymous tips).
We determined that CF-OEL and ENF-OCA need a centralized referral tracking
system for the following reasons:
    •	 The Offices’ use of separate databases to maintain similar information is
       not efficient. In addition, CF-OEL must periodically perform a labor-
       intensive process using ENF-OCA’s database to update its referral data.
    •	 Based on our review of referral memoranda, it appears that ENF-OCA
       does not always receive a copy of the referral when CF-OEL sends a
       referral directly to ENF staff. Thus, ENF-OCA would be unaware of a
       referral unless it learned about it inadvertently (e.g., from the ENF staff
       working on the referral). This may increase the risk that ENF staff might
       not act on a potentially significant referral and that neither CF-OEL nor
       ENF-OCA would be aware of this lack of action because information on
       the outcome of the referral (e.g., whether it was accepted or rejected and
       the reasons for that decision) is not always obtained. See Finding Two for
       a detailed discussion of this issue.

Recommendation 1:
The Divisions of Corporation Finance and Enforcement, in consultation with the
Office of Information Technology, should develop a centralized referral tracking
system for non-delinquent filer referrals. The Division of Corporation Finance
should record information about the potential securities law violation (e.g., date,
registrant, and alleged violation, etc.) in the centralized database, and the
Division of Enforcement should record information on the outcome of the referral
Corporation Finance Referrals                                      September 30, 2008
Memorandum Report No. 433
                                      Page 3
(e.g., whether the referral was accepted or rejected, and the reasons for that
decision) in the centralized database.

Finding 2: Information Concerning The Outcome
Of The Referral Should Be Recorded In The ENF
OCA Database
        ENF-OCA does not always record the outcome of referrals in its
        database, although other sources of outcome data are available to
        CF-OEL.

CF-OEL currently obtains information about the outcome of non-delinquent filer
referrals from either ENF staff or by reviewing ENF-OCA’s Access database.
However, CF-OEL does not always obtain this information. According to CF
OEL, ENF staff often do not contact them with the relevant information,6 and the
ENF-OCA database frequently does not contain the outcome information. ENF
OCA may not have the outcome information because ENF staff working on a
referral often do not provide ENF-OCA with any subsequent information about a
referral.

CF-OEL stated that receiving outcome information would be beneficial as it could
improve the quality of future referrals by identifying shortcomings in previous
referrals. In addition, as discussed in Finding 3, CF-OEL could use outcome
information to enhance its role as a gatekeeper regarding CF referrals to ENF.

Recommendation 2:
The Division of Enforcement should record information about the outcome of
non-delinquent filer referrals in its current Access database (and eventually in the
centralized database system - see Recommendation 1) to improve the referral
process, as discussed above.

Finding 3: CF-OEL’s Role As Gatekeeper Needs
Enhancement
        CF-OEL could enhance its role as a gatekeeper if it had outcome
        information (as discussed above).

CF-OEL reviews referral memoranda to improve the quality of the referral and
ensure that, for example, the referral clearly articulates the statutes and rules the

6
 CF’s referral contains a form for ENF staff to complete regarding information on the outcome of the
 referral. However, according to CF, ENF staff generally do not complete this form. CF and ENF-OCA has
 also indicated they do not have available resources to seek this type of outcome information proactively
 from ENF staff.
Corporation Finance Referrals                                                           September 30, 2008
Memorandum Report No. 433
                                                Page 4
registrant may have violated. Accordingly, CF-OEL, in effect, acts as a
gatekeeper for the referral process. In this role, CF-OEL declines to forward
referrals it deems to be inappropriate from CF’s perspective or to lack a legal
basis. However, CF-OEL’s ability to determine whether a referral might be
worthy of an investigation from ENF’s perspective is limited. CF-OEL stated that
it would like to increase its role in the referral process. However, CF-OEL
currently lacks the necessary outcome information on referrals to understand
fully the types of referrals ENF determines warrant an investigation. We believe
that CF-OEL would be able to enhance its current gatekeeper role if ENF
provided it with additional information on why ENF accepted or rejected referrals.

Recommendation 3:
The Division of Corporation Finance should enhance CF-OEL’s gatekeeper role
once the outcome information becomes more available (see Recommendation
2).




Corporation Finance Referrals                                     September 30, 2008
Memorandum Report No. 433
                                     Page 5
                                               Appendix I




Corporation Finance Referrals             September 30, 2008 

Memorandum Report No. 433

                                Page 6

                                          Appendix I (continued)




Corporation Finance Referrals                    September 30, 2008 

Memorandum Report No. 433

                                Page 7

                                          Appendix I (continued)




Corporation Finance Referrals                    September 30, 2008 

Memorandum Report No. 433

                                Page 8

                                                                   Appendix II


                                Acronyms

        CF                           Division of Corporation Finance

        ENF                          Division of Enforcement

        ENF-OCA                     The Division of Enforcement’s Office of
                                    the Chief Accountant

        CF-OEL                      The Division of Corporation Finance's
                                    Office of Enforcement Liaison

        OIG                          Office of Inspector General




Corporation Finance Referrals                                  September 30, 2008
Memorandum Report No. 433
                                  Page 9
                                                                        Appendix III


                   Summary of Recommendations

Recommendation 1:
The Divisions of Corporation Finance and Enforcement, in consultation with the
Office of Information Technology, should develop a centralized referral tracking
system for non-delinquent filer referrals. The Division of Corporation Finance
should record information about the potential securities law violation (e.g., date,
registrant, alleged violation, etc.) in the centralized database, and the Division of
Enforcement should record information on the outcome of the referral (e.g.,
whether the referral was accepted or rejected, and the reasons for that decision)
in the centralized database.

Recommendation 2:
The Division of Enforcement should record information about the outcome of
non-delinquent filer referrals in its current Access database (and eventually in the
centralized system - see Recommendation 1) to improve the referral process, as
discussed above.

Recommendation 3:
The Division of Corporation Finance should enhance CF-OEL’s gatekeeper role
once the outcome for information becomes more available (see
Recommendation 2).




Corporation Finance Referrals                                        September 30, 2008
Memorandum Report No. 433
                                      Page 10
                      Audit Request and Ideas


The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F. Street N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC, contact the
      Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form: www.reportlineweb.com/sec_oig
